HHS/OIG, Audit - "Review
of Outpatient Medicaid Claims Billed as Family Planning By New Jersey," (A-02-06-01010)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Outpatient Medicaid Claims Billed as Family Planning By New Jersey," (A-02-06-01010)
June 17, 2008
Complete
Text of Report is available in PDF format (497 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period February 1, 2001, through January 31,
2005, we estimate that New Jersey improperly received $597,000 in
enhanced 90-percent Federal funding for clinic, laboratory, radiology,
practitioner, or outpatient hospital services that did not qualify as family
planning services.  Section 1903(a)(5) of the Social Security Act and 42 CFR §§
433.10 and 433.15 provide enhanced 90-percent Federal Medicaid funding for
family planning services.  According to section 4270 of the CMS State Medicaid
Manual, family planning services prevent or delay pregnancy or otherwise
control family size.  Of the 107 family planning claims in our sample, 43 claims
did not qualify as family planning services.
The overpayment
occurred because the States electronic Medicaid claims database did not
identify all improperly coded claims that did not meet the requirements for
90-percent Federal funding, and some family planning clinics improperly billed
all services as family planning eligible for 90-percent Federal funding.  We
recommended that the State (1) refund $597,000 to the Federal Government, (2)
develop edits in its Medicaid claims database to identify all claims that do not
meet 90-percent Federal funding requirements, and (3) issue guidance to family
planning clinics that all services should not be billed as eligible for
90-percent Federal funding.  The State generally agreed with our findings and
recommendations.